  The Library of Congress
  Office of the Inspector General




                            Library Services

The Library’s Collections Acquisitions Strategy:
 Effective, but Some Improvements Are Needed

    Audit Report No. 2006-PA-104/December 2006




                        PUBLIC RELEASE 
          
                UNITED STATES GOVERNMENT                           LIBRARY OF CONGRESS
                Memorandum                                           Office of the Inspector General




TO:             Deanna Marcum                                                    December 15, 2006
                Associate Librarian for Library Services 
                                                                                                        
FROM:           Karl W. Schornagel 
                Inspector General 

                 
SUBJECT:        The Library’s Collections Acquisitions Strategy:  
                 Effective, but Some Improvements Are Needed 
                Audit Report No. 2006‐PA‐104 
 
 
This transmits our final audit report on the Library’s acquisitions strategy.  The 
Executive Summary begins on page i, and complete findings and recommendations 
appear on pages 7 to 19. 
 
Library Services response to our draft report is briefly summarized in the Executive 
Summary and in more detail after individual recommendations appearing on pages 10, 
14, 16 and 19.  The complete response is included as Appendix C. 
 
Library Services generally agreed with our findings.  However, it disagreed with our 
premise that “the significant logistical and financial resources needed to acquire, 
process, store, preserve, and protect collection items dictate that the Library reevaluate 
its acquisitions policies.”  Based on Library Services response to the draft report, we 
consider all of the recommendations resolved.   
 
We appreciate the cooperation and courtesies extended by Library Services’ 
management and the Acquisitions & Bibliographic Access Directorate. 
 
 
 
 
 
 
cc: Deputy Librarian 
THE LIBRARY OF CONGRESS                                                           AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                                                             December 2006


 Table of Contents

                       Executive Summary............................................................................................... i
                       Introduction ........................................................................................................... 1
                       Objectives, Scope, and Methodology ................................................................. 5
                       Findings And Recommendations ....................................................................... 7
                                   I.         The Library Should Explore Strategies to
                                              Reduce the Quantity of Materials it Collects .........................................7
                                              Recommendations ...................................................................................10
                                              Library Services Response and OIG Comments .................................11
                                   II.        The Library Should Focus its Collection Strategy...............................12
                                              Recommendations ...................................................................................14
                                              Library Services Response and OIG Comments .................................14
                                   III.       The Library Should More Effectively
                                              Address the Human Element in Acquisitions .....................................14
                                              Recommendations ...................................................................................16
                                              Library Services Response and OIG Comments .................................17
                                   IV.        Library Has Begun Establishing the Framework
                                              for a Transformation to the Digital Age ...............................................17
                                              Recommendations ...................................................................................19
                                              Library Services Response and OIG Comments .................................19
                       Conclusions.......................................................................................................... 20
                       Appendix A: Acronyms Used In This Report................................................ 21
                       Appendix B: Collecting Levels......................................................................... 22
                       Appendix C: Library Services Response ........................................................ 24




                         THE LIBRARY OF CONGRESS • Office of the Inspector General
THE LIBRARY OF CONGRESS                                   AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                         December 2006


 EXECUTIVE SUMMARY
                                   The Library maintains the world's largest collection of books
                                   and other materials with more than 132 million items. More
                                   than seven thousand items are added to the Library’s collections
                                   every day. Given the significant logistical and financial
                                   resources needed to acquire, process, store, and preserve these
                                   collection items, we performed an audit of the acquisition
                                   process. Our audit objective was to determine whether the
                                   Library is efficiently and effectively acquiring materials that
                                   meet researchers’ needs, and considering the logistical issues of
                                   its acquisitions.
           The Library
        should fine-tune           Because of increasingly severe space and budget considerations,
                                   we believe the Library must fine-tune its acquisitions strategy.
         its acquisitions          The Library acquires a vast quantity of materials, some without
        strategy to make           any clear connection to researchers’ needs. In light of the
            the most of            logistical issues it faces, we believe the Library should be more
             available             selective in both the quantity and usefulness of materials it
                                   acquires.
             resources
                                   The Library Should Explore Strategies to Reduce the Quantity
                                   of Materials it Collects ― The Library is unable to keep up with
                                   the inflow of materials, resulting in a six- to twelve-month delay
                                   between acquisition and availability, books overflowing in the
                                   stacks, preservation backlogs, and a new $20 million storage
                                   module needed every four years. To ensure it more cost
                                   effectively serves its constituency, we recommend the Library
                                   explore: (1) not collecting minimal level materials widely held
                                   by other libraries, (2) making arrangements for other institutions
                                   to act as “trusted repositories” and take on total collection
                                   responsibilities for analog materials in selected subject areas,
                                   and (3) adding only one, rather than multiple, copies of an item
                                   to the collections (see page 11).

                                   The Library Should Focus its Collection Strategy ― Library
                                   Services has conducted reviews to evaluate the relevance of the
                                   materials it collects, but only on a decentralized and inconsistent
                                   basis. By not taking into account the changing environment and
                                   needs of its patrons, the Library risks expending resources to
                                   acquire materials that may or may not meet researchers’ most
                                   critical needs. To its credit, Library Services recognizes the need
                                   for more outcome measures and is addressing this in its


                                  THE LIBRARY OF CONGRESS • Office of the Inspector General          i
THE LIBRARY OF CONGRESS                                         AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                    December 2006

strategic planning. Notwithstanding Library Services’ recent
efforts, we recommend (1) establishing a methodology to
determine which materials are more useful to researchers, (2)
more effectively using loan records and vendors’ access records
to electronic databases or subscriptions, and (3) reviewing the
collections policy statements at least once every five years (see
page 13).

The Library Should More Effectively Address the Human
Element in Acquisitions ― We found inconsistent performance
evaluations and criteria, and uncertainty among recommending
officers about their duties. We recommend that the Associate
Librarian for Library Services and the Collections Policy
Committee: (1) develop and communicate to recommending
officers criteria for recommending activities that is relevant,
complete, measurable, and clearly stated, (2) ensure that
recommending officers receive timely performance evaluations
that include their recommending duties, and (3) consider
expanding recommending officers’ authority to deselect
materials no longer relevant to the collections (see page 16).

The Library Has Begun Establishing the Framework for a
Transformation to the Digital Age ― We found that the Library
has taken, as a whole, the necessary steps for successful
transition to the digital environment. We also found that while
it has steadily increased spending on electronic resources, it still
lags behind many other large research libraries. Furthermore,
we found that as a matter of policy, the Library is acquiring as
much analog material as it did before the growth of digital
media. We recommend that the Library: (1) examine the
amount it is spending on electronic resources in relation to other
research libraries and reevaluate whether it is successfully
serving its patrons, (2) consider creating a full-time digital
subscription manager, and (3) reevaluate its policy of
maintaining both analog and digital copies of the same material
(see page 18).

Although Library Services generally agreed with our findings, it
disagreed with our premise that “the significant logistical and
financial resources needed to acquire, process, store, preserve,
and protect collection items dictate that the Library reevaluate
its acquisitions policies.” Library Services’ complete response is
included as Appendix C.


 ii   THE LIBRARY OF CONGRESS • Office of the Inspector General
THE LIBRARY OF CONGRESS                                            AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                                         December 2006


 INTRODUCTION
                                         The Library of Congress holds the world's largest library
                                         collection, with more than 132 million items, including
                                         research materials in over 470 languages and various
  Jefferson established the              media. The Library's collections are built on Thomas
    principle of universal               Jefferson’s premise that Congress’ interests are universal in
                                         scope. The collections cover virtually every discipline and
     acquisitions for the                field of study.1 In general, the Library acquires:
    Library of Congress:
     "there is in fact no                     •   all books and other library materials necessary to
                                                  the Congress and the various officers of the Federal
      subject to which a
                                                  Government to perform their duties,
     member of Congress                       •   all books and other materials that record the life
   may not have occasion                          and achievement of the American people, and
          to refer."                          •   records of other societies, past and present,
                                                  especially of those societies and peoples whose
                                                  experience is of the most immediate concern to the
                                                  people of the United States.

                                         The Library does not acquire all published materials, but
                                         chooses selectively from copyright deposits and other
                                         sources based on policies designed to ensure the Library
                                         acquires important and scholarly works. Copyright
                                         receipts, exchange receipts, and approval plan2 receipts
                                         together account for the majority of new materials added
                                         to the Library's collections. In total, the Library chooses
                                         from among about twenty-two thousand submissions to
                                         add between seven and thirteen thousand items to its
                                         collections every working day.

                                         Library of Congress Regulation (LCR) 319, Responsibilities
                                         for Recommending and Approving Recommendations for
                                         Materials to be Acquired for the Collections of the Library,
                                         states that “Library Services has primary responsibility for

                                         _____________________
                                          1 The Library does not collect technical materials concerning
                                          agriculture or clinical medicine. Those materials are collected by the
                                          National Agricultural Library (NAL) and the National Library of
                                          Medicine (NLM), respectively.
                                          2 An approval plan is an arrangement in which a publisher or

                                          wholesaler assumes the responsibility for selecting on behalf of the
                                          Library publications which fit a predetermined profile.



                                  THE LIBRARY OF CONGRESS • Office of the Inspector General                    1
THE LIBRARY OF CONGRESS                                                     AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                                December 2006

recommending materials to be acquired for the permanent
general and special collections, and the Law Library has
primary responsibility for recommending legal materials
for the permanent collections in accordance with the
Library's Collections Policy Statements [discussed below],
collection development guidelines, and acquisition
policies.3” Chiefs in Area Studies Collections, Public
Service Collections, and the Law Library, in consultation
with the Collections Policy Committee, appoint
recommending officers to recommend materials for the
collections.

LCR 320, Selection of Materials for the Library's Collections,
assigns the Associate Librarian for Library Services
responsibility to make policy for the selection of materials.
Those policies are developed in consultation with the Law
Library and Congressional Research Service. The
Associate Librarian has delegated selection responsibility
to the various topical areas.

LCR 320, Section 2.B., assigns the Anglo/American
Acquisitions Division Chief responsibility for selecting
materials received through Copyright, Cataloging In
Publication (CIP), and official publications of the U.S.
Government and its States and Territories. The
Anglo/American Acquisitions Division has designated
three “Selection Librarians” to review Copyright and CIP
materials.

The Library created the Collection Policy Committee
(CPC) to provide guidance, coordination, and planning for
the development and refinement of the Library's
collections.4 Its duties include:



_____________________
  3 Includes Acquisition Policy Statements and the Library Online
  Acquisitions Manual (LOLA M), a comprehensive guide for the
  Acquisitions Directorate.
  4 The committee is composed of the Director for Acquisitions &

  Bibliographic Access; Director for Collections & Services; Director for
  Preservation; Director, Law Library Services; Assistant Director,
  Knowledge Services Group; Congressional Research Service (CRS);
  and others as appointed.



 2    THE LIBRARY OF CONGRESS • Office of the Inspector General
THE LIBRARY OF CONGRESS                                                AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                                           December 2006

                                                 •   overseeing the development of the Library's
                                                     “Collections Policy Statements” and other
                                                     documents relating to the collections,
                                                 •   reviewing and monitoring the Library's annual
                                                     book budget request, including the allocation of
                                                     funds, and recommending changes in the
                                                     distribution, as necessary, to implement collections
                                                     policies, and
                                                 •   determining which areas of the collection should be
                                                     given special emphasis through projects such as the
                                                     "Special Projects" fund.

                                           The Collections Policy Statements set forth the scope,
                                           collecting concentration, and goals sought by the Library
                                           for a variety of subjects and geographic areas. A major
                                                               Library goal is to formulate an
                                                               acquisitions strategy sufficient to ensure
                                   Finding space to            broad coverage, yet specific enough to
                                                               serve the research needs of the Library's
                                    store seven to
                                                               clientele.
                                  thirteen thousand
                                   new items every               Finding space to house the seven to
                                   working day is a              thirteen thousand items the Library
                                                                 adds every working day is a challenge.
                                  daunting challenge
                                                                 In 1993, the President approved
                                                                 legislation transferring 100 acres at Fort
                                                                 Meade, Maryland from the U.S. Army
                                             to the Architect of the Capitol (AOC) for use by the Library
                                             to meet its storage needs. The Library now has access to
                                             100 acres on which it can build up to fourteen “high
                                             density5” storage modules. Each module will house
                                             approximately two million items.

                                             The Library is challenged with continuing to collect analog
                                             – books and other print – materials, while at the same time
                                             implementing fundamental changes to accommodate the
                                             21st century digital revolution. The Librarian has labeled
                                             this challenge “Challenge of Change; Maintenance of
                                             Tradition.” To this end, the Congress asked the Library to
                                             lead a nationwide initiative to develop a program, the
                                             _____________________
                                               5 “High Density” modules store books and other materials by size,

                                               thus maximizing space usage.



                                     THE LIBRARY OF CONGRESS • Office of the Inspector General                     3
THE LIBRARY OF CONGRESS                                      AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                 December 2006

National Digital Information Infrastructure and
Preservation Program (NDIIPP), for the collection and
preservation of digital content. Funded by an
appropriation of $99.8 million, this program intends to
develop a digital preservation infrastructure. A broad
range of stakeholders from the federal government, the
public, and the private sectors are developing plans to
capture and preserve digital information. Partners are
exploring preservation architecture that will be
trustworthy and responsive to rapidly changing
technology.

Researchers, scholars, librarians, and teachers generally
praise the breadth, depth, and quality/authority of the
Library’s collections. The completeness of our collections
is due to the dedicated and professional efforts of the
Library’s acquisition specialists and recommending
officers. However, the Library is struggling to keep pace
with the burden of cataloging, preserving, and storing the
astounding influx of new items each day.

We recognize that the Librarian of Congress has mandated
that the Library will continue acquiring and sustaining a
comprehensive record of American history and creativity,
and a universal collection of human knowledge. As part of
this strategy, he has set broad parameters on what is
collected and restrictions on what may be weeded. In this
time of tight budgets, the significant logistical and
financial resources needed to acquire, process, store,
preserve, and protect collection items dictate that the
Library reevaluate its acquisitions policies. This audit
explores some solutions to these issues.




 4    THE LIBRARY OF CONGRESS • Office of the Inspector General
THE LIBRARY OF CONGRESS                                         AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                               December 2006


 OBJECTIVES, SCOPE, AND METHODOLOGY
                                         We conducted an audit focusing on the Library’s
                                         acquisition policies and procedures. Our audit objectives
                                         were to determine whether the Library is:

                                            •   utilizing an efficient approach in acquiring
                                                materials,
                                            •   considering the impact of its acquisition
                                                policies on logistical issues, such as funding,
                                                staffing, and collection storage facilities, and
                                            •   addressing the impact of the digital
                                                transformation of knowledge.

                                         The scope of this audit focused primarily on FY 2006
                                         activities, but also used data from the past five years to
                                         develop historical trends. We examined processes for
                                         recommending, selecting, and processing materials
                                         received from purchase, Copyright receipts, Cataloging in
                                         Publication (CIP) deposits, exchange and gift receipts, and
                                         approval plans with foreign book dealers.

                                         We focused our audit primarily on Copyright and CIP
                                         receipts for two reasons. First, these receipts account for a
                                         significant portion (33%) of new books added to the
                                         Library's collections. Second, our survey indicated that the
                                         Library is more selective with materials it purchases or
                                         acquires by exchange than with books acquired via
                                         Copyright. We also examined the Library’s initiatives to
                                         collect electronic resources.

                                         Our methodology included interviewing key personnel,
                                         benchmarking against other institutions, researching the
                                         Internet, querying the Integrated Library System (ILS), and
                                         sampling Copyright deposits. We interviewed Library
                                         staff in the Acquisitions and Bibliographic Access
                                         Directorate, the Office of Strategic Initiatives, and the
                                         Congressional Research Service. For purposes of
                                         benchmarking, we interviewed the National Agriculture
                                         Library staff and conducted Internet searches on various
                                         association websites, including the American Library
                                         Association, the Association of Research Libraries, and the


                                  THE LIBRARY OF CONGRESS • Office of the Inspector General          5
THE LIBRARY OF CONGRESS                                                    AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                               December 2006

Council on Library and Information Research. ILS staff
ran queries for us on the ILS regarding present collection
holdings. We also sent a survey questionnaire to 240
recommending officers.

To evaluate the Library’s selection process, we randomly
tested a population of 21,987 copyright deposits, (received
January 1 to February 28, 2005).6 We reviewed the number
of copies the Library selected, number of items selected in
electronic format, the number of other libraries holding the
identical item, and the type of cataloging performed on the
items (copy or original7).

We conducted our audit in accordance with Generally
Accepted Government Auditing Standards issued by the
Comptroller General of the United States (the “Yellow
Book”), LCR 1519.1, Audits And Reviews By The Office Of
The Inspector General, and audit standards established by
the American Institute of Certified Public Accountants.




_____________________
  6 Our sample size of 91 yielded a 90 percent confidence level and a 5
  percent error rate.
  7 Original cataloging is performed on those items for which no catalog

  records are available. Copy cataloging involves finding a machine-
  readable record made by someone else that exactly (or almost exactly)
  matches the item in hand and using that record instead of creating a
  new one.



 6    THE LIBRARY OF CONGRESS • Office of the Inspector General
THE LIBRARY OF CONGRESS                                             AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                                    December 2006


 FINDINGS AND RECOMMENDATIONS
                                         Because of increasingly severe collections storage and
                                         budget considerations, we believe the Library must fine-
                                         tune its acquisitions strategy. In this report, we explore
                                         three strategies for easing the acquisitions “crunch:” first,
                                         reducing the number of items acquired by using other
                                         libraries and making some adjustments in the way items
                                                     are acquired, second, focusing the collections
                       Library generally does        so as to concentrate on more useful items, and
                            not consider             finally, improving the human element of
                                                     acquisitions. Given the digital revolution that
                            cataloging,
                                                     is redefining access to information, we also
                       preservation, or space        discuss digital initiatives at the Library and
                            issues in its            how those tie in with analog acquisitions
                       acquisition decisions         strategies.

                                                         Our overall assessment of acquisitions at the
                                            Library is that there needs to be more focus and overall
                                            principles guiding the process. The Library acquires a vast
                                            quantity of materials, some without any clear reason. In
                                            light of the logistical issues facing it, we believe the Library
                                            should be more selective in both the quantity and
                                            usefulness of materials it acquires.

                                            Our specific findings and recommendations are:

                                            I. The Library Should Explore Strategies to
                                               Reduce the Quantity of Materials it Collects

                                            With the exception of large gifts, the Library does not
                                            generally consider cataloging, preservation, or storage
                                            issues in its acquisition decisions. As a result, the Library
                                            is unable to keep up with the inflow of materials, resulting
                                            in a six- to twelve-month delay between acquisition and
                                            availability, books overflowing in the stacks, and a new
                                            $20 million storage module needed every four years. The
                                            proper stewardship of federal resources is an essential
                                            responsibility of agency managers and staff. They must
                                            ensure that programs operate and resources are used
                                            efficiently and effectively, consistent with agency missions,
                                            and with minimal potential for waste. We believe the


                                     THE LIBRARY OF CONGRESS • Office of the Inspector General            7
THE LIBRARY OF CONGRESS                                                         AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                                         December 2006

Library needs to assess the needs of its customer base and
reevaluate its selection criteria to ensure it more cost
effectively serves its constituency. Given that resources
are limited, the Library cannot continue to acquire at the
current rate and effectively serve its
customers.

From June 2005 to June 2006, the time to
complete the cataloging process for
monographs (a one-time publication that
is complete in itself, i.e. a non-serial
publication) increased from 208 days to
254 days (weighted mean for all
cataloging priorities). However, this
increase involved only materials assigned
a cataloging priority two or three. For
                                               Figure 1: Book trucks in the CIP Division holding area
materials given cataloging priority one8,
the average processing time is slightly less than 9 days; a
decline by one-half day from a year ago. In addition to
cataloging delays, we observed general collection books
tightly shelved, double stacked, or stacked on the floor in
several of the decks in the Jefferson Building. Likewise,
overcrowding exists in the CIP work area. At the time of
our fieldwork, CIP was working overtime to reduce its
backlog.

We believe that improving the acquisition policies would
have a minor effect on researchers and reduce the
Library’s need for storage modules by at least two over the
next 20 years.

Given the accelerated growth of the collections and the
limitations on staffing and storage resources, we believe
the Library should focus most of its resources on higher
priority items (See Appendix B for definitions of collecting
priorities). We suggest the Library explore the following
three options:
_____________________
  8 Priority one is assigned to pre- and post-publication CIP titles
  (constituting 90 to 95 percent of the priority one items), plus titles that
  may be requested by the Congress, Executive Branch agency heads or
  higher officers, Supreme Court Justices, or division chiefs or higher
  officers of the Library. For June 2006, this represented about 30
  percent of the monographs cataloged.



 8    THE LIBRARY OF CONGRESS • Office of the Inspector General
THE LIBRARY OF CONGRESS                                                                                        AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                                                                                              December 2006


                                                                                 •    Not collecting minimal level materials
                                                                                      widely held by other libraries.

                                                                               Our sample of Copyright deposits revealed that 7.5
                                                                               percent of the Copyright titles collected are in areas that
                                                                               the Library does not collect extensively (collection levels 1,
                                                                               2, and 3 materials) and are materials held by 100 or more
                                                                               other libraries. We project savings of $1.2 to $1.5 million
                                                                               over the next 20 years if the Library relies on other libraries
                                                                                                                                                          to collect this
                                           Figure 2: Projected Storage Space and Cost Requirements
                                                                                                                                                          lower level
                                                                                                                                                          Copyright
                            1,800,000                                                                                                  $1,600,000


                            1,600,000                                                                         1,606,500
                                                                                                                         7                                material. The
                                                                                                                                       $1,400,000

                            1,400,000                                                                    6
                                                                                                                                                          Library should
                                                                                               1,377,000                               $1,200,000




                                                                                                                                Equivalent Storage Cost
                            1,200,000
                                                                                                                                                          make an effort
                                                                                1,147,500
                                                                                                            5
            Cubic Footage




                                                                                             5                                         $1,000,000
                            1,000,000
                                                                                                                                                          to compare its
                                                                     918,000   4               4                                       $800,000
                              800,000                                                                                                                     holding to those
                                                           688,500 3         3
                              600,000
                                                                                                                                       $600,000
                                                                                                                                                          of other
                              400,000
                                              459,000  2          2                                                                    $400,000
                                                                                                                                                          libraries, as it
                                                1
                              200,000                 229,500                                                                          $200,000
                                                                                                                                                          did in the 1980s
                                    0
                                      2000            2005              2010               2015             2020                  2025
                                                                                                                                       $0                 and 1990s, when
                                                                               YEAR                                                                       it participated
                             Projected storage required for new materials added (print materials and manuscripts only),
                             Estimated cost of storage based on present area lease rates.
                                                                                                                                                          in the Research
                             Projected storage requirements keeping one copy and holding fewer items widely held by other libraries.                      Libraries
                                                                                          Each           indicates an additional storage module required.
                                                                                                                                                          Group’s (RLG)
                                                                                                                                                          Conspectus.9

                                                                                 •    Developing collaborative partnerships with other
                                                                                      institutions to act as “trusted repositories.”

                                                                          The Library should also explore making arrangements for
                                                                          other institutions to act as “trusted repositories” and take
                                                                          on total collection responsibilities for analog materials in
                                                                          selected subject areas, similar to the current arrangements
                                                                          _____________________
                                                                             9An inventory of research libraries' existing collection strengths and
                                                                             current collecting intensity, created through a survey using
                                                                             worksheets based on the Library of Congress's classification scheme.
                                                                             The Library used the Conspectus to assess its collections and
                                                                             collecting practices. The RLG Conspectus became a widely
                                                                             recognized collection assessment tool and was adopted by the
                                                                             Association of Research Libraries (ARL) for its North American
                                                                             Collections Inventory Project. However, at the end of August 1997,
                                                                             the RLG suspended the Conspectus.



                                                              THE LIBRARY OF CONGRESS • Office of the Inspector General                                                9
THE LIBRARY OF CONGRESS                                          AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                     December 2006

with the National Library of Medicine and the National
Agriculture Library. Agreements should include
arrangements allowing the Library to take possession of
materials in the event a “trusted repository” fails.

     •   Adding only one, rather than multiple,
         copies of an item to the collection.

In FY 2005, the Library added multiple copies for 42,178 of
the 311,130 (13.6 percent) new monograph titles added to
the collection (according to statistics provided by the ILS
Office). The criteria for selecting multiple copies, as
detailed in the Library of Congress
Acquisitions Manual, does not consider
other Library holdings that may be very
similar, or whether the title is widely held          Depending on other
by other libraries. We recognize that the             libraries to provide
U.S. materials are heavily used and two           researchers with certain
copies are sometimes used
simultaneously. However, it costs the
                                                    materials presents an
Library $8,984 to shelve these extra copies           opportunity for the
(one time cost) and $5,061 annually to           Library to better focus its
store. The storage costs will compound
                                                        collection efforts
each year. We project the Library could
save between $1.3 and $3.4 million
(depending on collection growth rates)
over 20 years by not adding multiple copies.
Alternatively, the Library could consider culling multiple
copies once their circulation decreases.

Recommendations:

We recommend that the Associate Librarian for Library
Services and the Collection Policy Committee:

1.       focus Library resources more on materials not
         widely held by other libraries. We recommend a
         three step process (during cataloging):
                     a. determine the collection level for the
                        title,
                     b. determine how many other libraries
                        hold the title, and




 10      THE LIBRARY OF CONGRESS • Office of the Inspector General
THE LIBRARY OF CONGRESS                                                           AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                                                      December 2006

                                                                           c. make a revised selection decision
                                                                               based on criteria established by
                                                                               management,10
                                                    2.         explore developing collaborative partnerships with
                                                               other institutions to act as “trusted repositories,”
                                                               and
                                                    3.         reevaluate the Library’s collection policies bearing
                                                               in mind the high costs associated with each
                                                               acquisition.

                                                    Library Services Response and OIG Comments

                                                    Library Services agreed to study our recommendations. It
                                                    has asked OCLC to match the LC’s online catalog against
                                                    the WorldCat union catalog to identify LC’s unique
                                                    holdings in published literature. Library Services noted
                                                    that factors such as uncertain funding for possible partners
                                                    and restrictions on interlibrary loans could prevent
                                                    successful collaborative partnerships.

                                                    Library Services also responded that our statistics on
                                                    processing time did not agree with its figures. We
                                                    determined that there was an error in data provided by the
                                                    Social Sciences Cataloging Team. The correct data
                                                    significantly changed the overall processing time for
                                                    priority one, but did not change our findings on the overall
                                                                  processing time for all categories. Concerning
                                                                  processing time, Library Services responded
                                                                  that it had approved the use of overtime to
                                                                  clear out the backlogs shown in Figure 1.
                                                                  While we credit Library Services for dealing
                                                                  with the backlog, we believe overtime is a
                                                                  short-term solution to a long-term problem.




  Figure 3: Overcrowded conditions on deck 15, Jefferson Building


                                                    _____________________
                                                         10Library management should establish the threshold criteria, such as
                                                         not collecting materials held by 100 or more other libraries.



                                       THE LIBRARY OF CONGRESS • Office of the Inspector General                         11
THE LIBRARY OF CONGRESS                                       AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                  December 2006

II. The Library Should Focus its Collection Strategy

The Library does a good job measuring outputs, such as
number of titles recommended, or gaps in the collection.
These measures, however, do not reflect the true mission
of the Library – to be useful to its customers. Only 23
percent of the recommending officers we surveyed
indicated they were getting feedback from management
regarding the usefulness of the collections to researchers.
In order to make better selection decisions, management
must have better information about the relevance of the
materials it collects. Government Auditing Standards state
that managers are responsible for “establishing and
maintaining effective internal control to help ensure that
appropriate goals and objectives are met; and resources are
used efficiently, economically, and effectively…” Effective
internal control includes ongoing monitoring of activities.

Library Services has conducted reviews to evaluate
holdings, but only on a decentralized and inconsistent
basis. For example, the Acquisitions Directorate’s web
page provides collection overviews detailing the strengths
and weaknesses of individual collections – but the data are
over a decade old.

Library Services is addressing this problem in two ways.
First, the Associate Librarian for Library Services
announced in February 2006 that Library Services would
adopt the framework of the Government Performance and
Results Act (GPRA) for planning and managing its
programs. Second, Library Services FY 2008 to 2013
Strategic Plan (in draft as of September 13, 2006) included
outcome objectives and performance goals such as
assessing how the Library’s collection development
policies meet the current information needs of its patrons.
We believe these efforts will allow Library Services to
better evaluate whether it is using its resources cost-
effectively to accomplish its collection development goals.

At the time of our fieldwork, Library Services was
conducting focus groups and customer surveys to better
assess whether it was meeting the needs of its patrons. We
believe focus groups and customer surveys are excellent


 12     THE LIBRARY OF CONGRESS • Office of the Inspector General
THE LIBRARY OF CONGRESS                                               AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                                           December 2006

                                           tools to assess whether the collections are meeting
                                           researchers needs. However, the current survey does not
                                           measure whether the Library’s collections include
                                           materials of marginal research value or readily available at
                                           other libraries.

                                     The Library should use statistical information to determine
                                     which of the electronic resources it offers are being used by
                                     researchers. The loan module in Voyager 11, however, is
                                     not comprehensive enough to provide management with
                                     useful decision-making data. Further, Library Services
                                     believes that vendor statistics for subscriptions to
                                                 electronic resources may be overstated.
                                                 Nonetheless, in the absence of other usage
                                                 statistics, we believe the Library should use
             78 percent of the Collection
                                                 these data to develop trends. Those trends
             Policy Statements had not           should enable management to better assess the
            been reviewed within the last        usefulness of electronic subscriptions.
                              5 years
                                                 Finally, the Library must establish a systematic
                                                 review process for collections policies. The
             Of those, 51 percent had not        organization in charge of these policies, the
              been reviewed for over 10          Collections Policy Committee (CPC) is
                                                 decentralized and its members have other
                        years
                                                 major duties. As a result, the review effort is
                                                 lagging: at least forty percent of the 68
                                                 Collection Policy Statements have not been
                                                 formally reviewed and updated for over 10
                                    years and at least 78 percent had not been reviewed within
                                    the last 5 years. Although the statements are intentionally
                                    broad in their scope and may not need revision, we believe
                                    a systematic review process is necessary to ensure the
                                    Library is keeping its policies in sync with current user
                                    needs and expectations. We also believe a staff dedicated
                                    to this function would perform more effectively than the
                                    current decentralized, “collateral duty” model.




                                           _____________________
                                             11Voyager is the software package the Library uses for its
                                             acquisitions, cataloging, and loan processing.



                                   THE LIBRARY OF CONGRESS • Office of the Inspector General                 13
THE LIBRARY OF CONGRESS                                       AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                  December 2006

Recommendations:

We recommend that the Associate Librarian for Library
Services and the Collection Policy Committee:

1. establish a methodology to determine which materials
   are more useful to researchers,
2. more effectively use loan records and vendors’ usage
   records of electronic databases and subscriptions, and
3. review the collections policy statements at least once
   every five years.

Library Services Response and OIG Comments

Library Services agreed with our recommendations. It
noted that it “cannot limit a user study to researchers.”
We agree; we consider the term “researchers” to loosely
encompass all Library users.

III. The Library Should More Effectively
     Address the Human Element in Acquisitions

Symbolic of the apparent lack of focus on consistent
collections policies is the casual approach to the human
side of acquisitions management.

Recommending officers, generally librarians in individual
subject areas, choose the materials the Library purchases
for the collections. Recommending officer functions are
considered collateral duties.

In our survey of recommending officers, we found
inconsistent performance evaluations and criteria.
Furthermore, we found uncertainty among recommending
officers about their duties. We attribute the conditions to
three possible factors: (1) less time for supervisors to
manage due to recent staff reductions, (2) recommending
functions are collateral duties, and (3) oversight by
committee rather than a dedicated office. One
recommending officer’s statement summarizes the
situation: “I believe that the current system of LC
recommending officers is quite a patchwork, and that most
of us do this as volunteers from pure interest in the


 14     THE LIBRARY OF CONGRESS • Office of the Inspector General
THE LIBRARY OF CONGRESS                                             AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                                       December 2006

                                          materials and collections. The demarcation lines between
                                          recommending and selecting are very fuzzy and cause
                                          confusion, conflict, and uneven recommending practices.”

                                          Many supervisors are not evaluating the performance of
                                          the recommending officers on a regular basis as required
               We found                   by the Collective Bargaining Agreements with AFSCME
                                          Locals 2477 and 2910.12 Eighty-two percent of the
             inconsistent                 recommending officers in our survey stated that their
             performance                  position description included their recommending duties.
           evaluations and                However, supervisors evaluated performance as a
                                          recommending officer in only 60 percent of the responses.
             criteria, and
                                          The other 40 percent responded that either their supervisor
          uncertainty among               did not evaluate their recommending performance or they
            recommending                  were not aware if they had been evaluated. According to
            officers about                one recommending officer, “although I have been in this
                                          Division for almost 4 years, I have never received a
              their duties
                                          performance evaluation. My impression though is that
                                          recommending is not given a high priority.”

                                          Our survey of recommending officers also revealed that
                                          supervisors use inconsistent criteria to evaluate
                                          performance. Performance criteria often included
                                          measures that were not connected to building a quality
                                          collection, such as time spent recommending, and number
                                          of items recommended. Moreover, some recommending
                                          officers were not aware of the criteria used to evaluate
                                          their recommending duties. To effectively measure the
                                          success of the recommending function, the Library needs a
                                          uniform set of criteria that is measurable, clearly stated,
                                          and understood by both the supervisor and the
                                          recommending officer.

                                          During the past year, the Collections Policy Committee
                                          formed a subgroup – the “Collections Development
                                          Roundtable” – to improve communication between
                                          recommending officers, selection librarians, and
                                          _____________________
                                          12The Collective Bargaining Agreement with AFSCME Local 2910,
                                          ARTICLE 15. PERFORMANCE EVALUATION, Section 7. Time of
                                          Annual Performance Ratings, and the Collective Bargaining Agreement
                                          with AFSCME Local 2477, ARTICLE 18. PERFORMANCE
                                          EVALUATION, Section 7, Time of Annual Performance Ratings, state in
                                          relevant part: “… performance ratings shall be made annually[.]”



                                  THE LIBRARY OF CONGRESS • Office of the Inspector General                15
THE LIBRARY OF CONGRESS                                        AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                   December 2006

acquisition specialists. We believe that by sharing ideas
and developing more uniform measures, managers can
better assess the effectiveness of the collection
development efforts.

The Collections Development Roundtable also needs to
ensure that all recommending officers are aware of their
duties.

In the case of Copyright and CIP materials, three full-time
“selection librarians” choose from among submissions to
add to the collections. Recommending officers, often
reference librarians, have the ability to correct selection
errors by deselecting materials of minimal research value
or duplicative of other holdings. Some recommending
officers responding to our questionnaire were unaware of
their ability to determine not to add newly received items
to the collections.

Finally, as the topical specialist, the recommending officer
should be the final decision maker for what is added to the
collection and for decisions on what materials over time
are no longer of research value and should be removed
from the collection. We believe the Library could
significantly reduce storage requirements by encouraging
recommending officers to deselect materials that may no
longer be of research value or have been supplanted by
more recent acquisitions.

Recommendations:

We recommend that the Associate Librarian for Library
Services and the Collection Policy Committee:

1. develop and communicate to recommending officers
   criteria for recommending activities that is relevant,
   complete, measurable, and clearly stated,
2. ensure that recommending officers receive timely
   performance evaluations that include their
   recommending duties, and
3. consider expanding recommending officers’ authority
   to deselect materials no longer relevant to the
   collections.


 16     THE LIBRARY OF CONGRESS • Office of the Inspector General
THE LIBRARY OF CONGRESS                                           AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                                 December 2006


                                          Library Services Response and OIG Comments

                                          Library Services responded that it has already taken action
                                          or plans to take action on recommendations 1 and 2. For
                                          recommendation 3, it stated that “[t]he Librarian of
                                          Congress has expressly forbidden staff to deselect
                                          materials without his written approval.” We agree that
                                          Library Services cannot implement this recommendation
                                          without the Librarian’s consent.

                                          IV. Library Has Begun Establishing the Framework
                                              for a Transformation to the Digital Age

                                          As part of our review of acquisitions, we met with staff
                                          involved with the Library’s digital initiatives to evaluate
                                          the Library’s transition to the digital environment. Using
                                          the Government Accountability Office’s framework for
                                          evaluating a successful transformation, we found the
                                          Library has taken the necessary steps but needs to
                                          establish target dates for completion of its projects. The
                                          Library has developed a planning framework, is
                                          assembling advisory groups, and forming partnerships to
                                          guide its planning for a national digital information
                                          strategy.

                                          In September 2004, the Library announced its first formal
                                          NDIIPP digital preservation grants, totaling nearly $14
                                          million and made to eight lead institutions. The
                                          institutions are to identify, collect, and preserve born-
                                          digital materials, and build a national digital-preservation
                                          infrastructure. We plan to review the progress of four of
                                          the eight lead institutions in an upcoming audit. Our
                                          objectives will be to determine if: (1) the partners are
                                          complying with the cooperative agreement terms and
                                          conditions, and (2) they are generally fulfilling the goals of
                                          their agreements.




                                  THE LIBRARY OF CONGRESS • Office of the Inspector General         17
THE LIBRARY OF CONGRESS                                        AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                   December 2006

As part of our review of the transformation to digital, we
examined the funds the Library is expending on electronic
resources. We found the Library has steadily increased its
spending but still lags behind many other large research
libraries; both in terms of gross dollars spent and total
titles purchased. Using the most recent data available
from the ARL, we found that the average ARL library
spent $2.75 million on electronic publications/databases in
FY 2004, or nearly double the $1.4 million the Library
spent. However, the Library
significantly increased its 2006
allocation for electronic resources
to $2 million in FY 2006; a 43             The Library has steadily
percent increase from FY 2004.            increased its spending on
Presently, the Library subscribes to
about 244 electronic
                                           electronic resources but
subscriptions/databases. The New            still lags behind many
York Public Library subscribes to            other large research
over 300 commercially produced
                                                     libraries
research databases and the Johns
Hopkins University Library
subscribes to 344. Due to the
complexity and high cost of digital subscriptions, strong
and sustained oversight is needed if the Library is to
successfully serve its patrons. Library Services has
assigned several staff to oversee the digital subscriptions
as collateral duties. We believe one way to ensure more
effective and sustained leadership would be to create a
full-time Digital Subscription manager position.

Digital technology provides the Library the opportunity to
more effectively present its collections and engage
audiences. Other institutions have begun to offer off-site
access to its electronic subscriptions. We note that with a
New York Public Library card, you can access their online
databases from home. The Acting Head of the ILS Office
told us that presently the Library does not offer access for
home users or via the Library’s web page. We believe the
Library needs to explore offering off-site access as a means
to better service its patrons. Increased service needs to be
weighed against the security risks associated with
allowing outside access to the Library’s computer systems.




 18     THE LIBRARY OF CONGRESS • Office of the Inspector General
THE LIBRARY OF CONGRESS                                           AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                                  December 2006

                                          Our review of the Library’s transformation to digital
                                          revealed that, as a matter of policy, the Library is acquiring
                                          as much analog material as it did before the growth of
                                          digital media. According to the Preservation Director, this
                                          policy is in contrast to the RLG and ARL declaration that a
                                          digital copy can be used as a preservation copy. The
                                          Library’s position is that it is uncertain how long the
                                          digital format will last and it is questionable whether we
                                          will have the machines to read the medium in 100 years.
                                          Machine dependent items are problematic for
                                          preservation. Consequently, the Library often adds analog
                                          materials to its collections even if the title is available
                                          digitally.

                                          As discussed in the first section of this report, the Library
                                          is reaching a critical stage in providing storage for its vast
                                          collections. In view of these storage issues, we believe the
                                          Library may want to reconsider its policy of retaining an
                                          analog copy for materials that are available digitally.

                                          Recommendations:

                                          We recommend that the Associate Librarian for Library
                                          Services and the Collection Policy Committee:

                                          1. examine the amount the Library is spending on
                                             electronic resources in relation to other research
                                             libraries and reevaluate whether the Library is
                                             successfully serving it patrons,
                                          2. consider creating a full-time Digital Subscription
                                             manager, and
                                          3. reevaluate its policy of maintaining both analog and
                                             digital copies of the same item.

                                          Library Services Response and OIG Comments

                                          Library Services did not understand the relevance of
                                          comparing our expenditure to other libraries’ spending on
                                          electronic resources. We believe this comparison is one of
                                          several measures that Library Services should use to
                                          evaluate the level of service it provides to Library patrons.
                                          Concerning recommendation 2, Library Services stated
                                          that it would consider staff needed for new tasks as part of
                                          its strategic planning. Library Services agreed in principle
                                          with recommendation 3.

                                  THE LIBRARY OF CONGRESS • Office of the Inspector General          19
THE LIBRARY OF CONGRESS                                         AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                      December 2006


 CONCLUSIONS
Largely because of the dedicated and professional efforts
of the Library’s acquisitions staff, researchers, scholars,
librarians, and educators praise the breadth, depth, and
quality and authority of the Library’s collections.
However, given the intense pace of acquisitions at a time
of increasingly tight budgets, the Library is struggling to
keep pace with the costs and logistical demands of
cataloging, preserving, and storing its vast collections.

To its credit, the Library recognizes that collaborative
                                                                       The Library is
partnerships are a viable way of keeping up with the
explosion of digital material. The NDIIPP adopted a                  struggling to keep
partnering strategy: “[be]cause no single institution – not         pace with the costs
even the Library of Congress – can maintain all the digital            and logistical
information that will be essential to future researchers and
                                                                        demands of
lifelong learners, each institution has agreed to collect and
preserve a specific type of material...” We believe this                cataloging,
same model is needed for analog materials.                            preserving, and
We commend Library Services for recognizing the                       storing its vast
importance of outcome measures and emphasizing them                      collections
in its strategic plan. Outcome measures provide better
data to prioritize needs, and justify budget and selection
decisions so that the Library can maximize the use of its
resources.

To successfully address its acquisition goals, the Library
needs to make certain that it has sufficient resources to
meet demands. Given the severity of the fiscal challenges
our nation faces and the wide range of competing federal
programs, hard choices are being made across the
government and the Library is no exception. The
recommendations in our report, realistically, do not
foresee any increase in resources for the Library. If the
Library wishes to continue its current pace of acquisitions,
it will have to request additional resources from Congress.


Major Contributors to This Report:

Nicholas G. Christopher, Assistant Inspector General
Patrick J. Cunningham, Senior Auditor
Cornelia E. Jones, Auditor


 20     THE LIBRARY OF CONGRESS • Office of the Inspector General
THE LIBRARY OF CONGRESS                                          AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                             December 2006


 APPENDIX A: ACRONYMS USED IN THIS REPORT
                                  AOC       Architect of the Capitol
                                  ARL       Association of Research Libraries
                                  CIP       Cataloging in Publication
                                  CPC       Collection Policy Committee
                                  CRS       Congressional Research Service
                                  FY        Fiscal Year
                                  GPRA      Government Performance and Results Act
                                  ICAC      Internal Controls Audit Committee
                                  IG        Inspector General
                                  LCR       Library of Congress Regulations
                                  LOLA M    Library Online Acquisitions Manual
                                  NAL       National Agriculture Library
                                  NLM       National Library of Medicine
                                  OIG       Office of the Inspector General




                                    THE LIBRARY OF CONGRESS • Office of the Inspector General   21
THE LIBRARY OF CONGRESS                                         AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                    December 2006


 APPENDIX B: COLLECTING LEVELS
The Research Libraries Group13 developed a system of collecting
levels, known as the RLG Conspectus, intended primarily for the
uniform evaluation of collections in research libraries. The use of
these collecting levels evolved from a tool for evaluation into a
meaningful set of descriptors employed in library collection policy
statements. These levels are used in the Library of Congress
policy statements to define the extent of the Library's collections.
The general definitions of these collecting levels are:

0 - Out-of-Scope: The Library does not collect in this area.

1 - Minimal Level: A subject area in which few selections are
made beyond very basic works.

2 - Basic Information Level: A collection of up-to-date general
materials that serve to introduce and define a subject and to
indicate the varieties of information available elsewhere. It may
include dictionaries, encyclopedias, selected editions of important
works, historical surveys, bibliographies, handbooks, and a few
major periodicals, in the minimum number that will serve the
purpose. A basic information collection is not sufficiently
intensive to support any courses of independent study in the
subject area involved.

3 - Instructional Support Level: A collection that in a university is
adequate to support undergraduate and most graduate
instruction, or sustained independent study; that is, adequate to
maintain knowledge of a subject required for limited or
generalized purposes, of less than research intensity. It includes a
wide range of basic monographs, complete collections of works of
more important writers, selections from the works of secondary
writers, a selection of representative journals, and reference tools
and fundamental bibliographical apparatus pertaining to the
subject.

4 - Research Level: A collection that includes the major published
source materials required for dissertations and independent
research, including materials containing research reporting, new
findings, scientific experimental results, and other information
useful to researchers. It is intended to include all important

_____________________
  13   http://www.rlg.org/



 22        THE LIBRARY OF CONGRESS • Office of the Inspector General
THE LIBRARY OF CONGRESS                                   AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                        December 2006

                                   reference works and a wide selection of specialized monographs,
                                   as well as a very extensive collection of journals and major
                                   indexing and abstracting services in the field. Older material is
                                   retained for historical research.

                                   5 - Comprehensive Level: A collection which, so far as is
                                   reasonably possible, includes all significant works of recorded
                                   knowledge (publications, manuscripts, and other forms), in all
                                   applicable languages, for a necessarily defined and limited field.
                                   This level of collecting intensity is one that maintains a "special
                                   collection." The aim, if not achievement, is exhaustiveness. Older
                                   material is retained for historical research.




                                  THE LIBRARY OF CONGRESS • Office of the Inspector General        23
THE LIBRARY OF CONGRESS                                   AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                              December 2006


 APPENDIX C: LIBRARY SERVICES RESPONSE




 24     THE LIBRARY OF CONGRESS • Office of the Inspector General
THE LIBRARY OF CONGRESS                                 AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                    December 2006




                                  THE LIBRARY OF CONGRESS • Office of the Inspector General   25
THE LIBRARY OF CONGRESS                                   AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                              December 2006




 26     THE LIBRARY OF CONGRESS • Office of the Inspector General
THE LIBRARY OF CONGRESS                                 AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                    December 2006




                                  THE LIBRARY OF CONGRESS • Office of the Inspector General   27
THE LIBRARY OF CONGRESS                                   AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                              December 2006




 28     THE LIBRARY OF CONGRESS • Office of the Inspector General
THE LIBRARY OF CONGRESS                                 AUDIT REPORT NO. 2006-PA-104
Office of the Inspector General                                                    December 2006




                                  THE LIBRARY OF CONGRESS • Office of the Inspector General   29
